No. 20-299

 

 

In THE
Supreme Court of the United States

MILLIMAN, INC.,

Petitioner,
v.

JAMES J. DONELON, COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA,
IN HIS CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.,

Respondent.

On Petition for a Writ of Certiorari to the
Louisiana Supreme Court

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

2,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 12, 2021.

 

Wilson-Epes Printing Co., Inc.
